                                          From the Inspector General
The past 6 months at the Department of Transportation's Office of Inspector General have brought
challenges, with many positive results. Keeping the safety of the traveling public foremost in our
mindswhile monitoring efficient use of public resourcesthe OIG team brings you this detailing
of 78 audits and 154 investigations finalized between October 1, 1998 and March 31, 1999.

During the period, the Office of Inspector General intensified its investigative and auditing
emphases on trucking safety. Trucking-related accidents take more than 5,000 lives annually in the
United States.

Significant work in the period included an audit report (TR-1999-034) detailing the lack of enough
safety inspections of short-haul trucks entering the United States from Mexico, and recommending
improvements by the time long-haul Mexican trucks enter the U.S.; six separate investigations lead-
ing to 25 convictions on charges related to unsafe trucking operations; an investigation of lobbying
activities within the Federal Highway Administrations Office of Motor Carriers which spurred
restructuring of management at OMC and an audit (report TR-1999-055) of the effectiveness of
OMCs truck-safety program. These issues were presented in testimony before committees of both
the U.S. Senate and the U.S. House of Representatives, and are included as a focus of this
Semiannual Report (see page 4).

We issued reports relating to major issues affecting aviation safety, security, research and develop-
ment, financing, and several specific air traffic control modernization projects.

Other reports of note during the period include our oversight of an independent assessment of
Amtraks financial condition and requirements through Fiscal Year 2002; our look at the top 10 man-
agement issues within DOT; our review of ongoing Year-2000 computer issues within DOT and our
review of the Departments Fiscal Year 1998 financial statements. Thirteen testimonies were deliv-
ered to six Congressional committees on our work, a record for the Departments OIG.

In January, the Office of Inspector General updated the design and content of its website
(http://www.dot.gov/oig). Audit reports, always available on the site, now can be tracked by subject
headings for speedier results. OIG news releases and recent developments are newly posted.

We strive to add value dailyand we at OIG appreciate the cooperation of Secretary Slater, his staff
and all DOT operating administrations in helping us serve the public.


                                                               Kenneth M. Mead
                                                               Inspector General
                       Summary of Performance
                      Office of Inspector General
                  October 1, 1998-March 31, 1999
                    Reports Issued   78
 Total financial recommendations     $170,194,000

       That funds be better-used    $162,085,000

                Questioned costs    $ 8,109,000


         Referrals for prosecution 127



   Cases accepted for prosecution 95

                       Indictments 78

     Fines, restitutions, recoveries $18,203,513


                       Convictions 71

Contract terminations/debarments 2

 Actions affecting DOT employees 19
Major Audits and Investigations       1


Focus:	         DOTs Top 10 Issues   2
                Trucking Safety       4
                GPRA Compliance       6
Chart: Work Planned and in Progress   8

October 1998                          10
November 1998                         14
December 1998                         20
January 1999                          24
February 1999                         28
March 1999                            32

Chart: OIG Fiscal Year 1999 Budget    38

Organization/Management               39


Chart: OIG Organization               39

Table: Completed Audits               40

Table: Management Decisions           41
                                                       Contents

Table: Reports with Recommendations
           That Questioned Costs                             42

Table: Recommendations That Funds
            Be Put to Better Use                             43

Table: Recommendations for Safety,
           Economy or Efficiency                             44

Table: Status/Unresolved Audit Recommendations               45

Table: Profile of Pending Investigations                     46

Table: Judicial Actions                                      47

Table: Administrative Actions                                47

Charts: Audit and Investigative Resource Application         49

List of Audits                                               50

                                               Major Audits

                                                         and
                                              Investigations

The Office of Inspector General includes a staff of auditors and evaluators who review
the programs and operations of the Department of Transportation to help its managers
improve them. Some audits focus on financial issues; others review the effectiveness of
programs. The Inspector Generals staff also includes investigators who build criminal
cases against lawbreakerssuch as trucking firms that force drivers to work too many
hours without rest, haulers who illegally transport hazardous materials, vendors who
traffic in illegal, unapproved aircraft parts and Department staff who violate public trust.

Many factors go into determining what to audit. Some audits are required by law.
Others are requested by key decisionmakers, such as the Secretary of Transportation,
heads of the Operating Administrations within DOT or Members of Congress. The OIG
audit agenda is also based on the past experience of an audited entity, the strategic goals
of DOT, and priorities established each year by OIG itself. The Inspector General Act
requires the Department to provide the IG with all requested information and for the IG
to report any instance in which access was denied. No information requested by OIG
was withheld by DOT officials during the 6 months covered in this report.

Information for OIG investigations also comes from many areas. DOTs Operating
Administrations and state government officials often will refer tips or information about
suspicious activity to OIG special agents for investigation. Those agents build the cases,
executing search warrants as needed and making arrests in the process. The majority of
cases are prosecuted by United States attorneys in Federal courts.

Another source of investigative direction is the Office of Inspector General hotline, an
800 number that lets citizensincluding Federal workershave direct access to OIG
staff. The number is 1-(800)-424-9071. Hotline users are not obliged to disclose their
identities and whistle-blowers within the government are protected from reprisal by
Federal law. The hotline staff now can be e-mailed at hotline@oig.dot.gov




                                    1
Focus:

    A report (TW-1999-031) responding to Congress request for

   prioritization and background on the major management issues

                facing the Department of Transportation 


      Aviation Safety



  1
      U.S. air carriers, including commuter airlines, experienced a zero fatal accident
      rate in 1998 while carrying 615 million passengers. Improving programs that
      prevent near-collisions on airport runways, improving aircraft inspections and
      assessing the safety implications of alliances between U.S.-based carriers and
      foreign carriers will help FAA continue this trend.
                      Surface Transportation Safety



  2
                      DOT must upgrade checks on truck maintenance, driver quali-
                      fications and compliance with limits on driving time. Tough
                      enforcement should counter unsafe practices. Trucks entering
                      the U.S. from Mexico need to be safer and hazardous-materials
                      transportation rules must be enforced.

      Year-2000 Computer Issues



  3
      DOT has made significant strides to get its computer systems Y2K-ready. It
      must now make sure this work on all mission-critical computer systems is com-
      pleted as scheduled. DOT also needs assurance that private transportation
      providers serving the public will be Y2K-compliant. Contingency plans must
      be in place.
                      Air Traffic Control Modernization



  4
                      FAA has had modernization successes in three key programs in
                      the past year. In its transition to satellite navigation systems,
                      FAA should determine whether a backup system is needed.
                      Software-intensive contracts, such as the Standard Terminal
                      Automation Replacement System, must be better-managed.

      FAA Financing



  5
      In the past decade, FAAs operating budget has nearly doubled to almost $6 bil-
      lion a year out of a total budget of about $10 billion. It is expected to increase
      to $12 billion by the year 2004. Operations costs, especially labor costs, threat-
      en to overwhelm FAAs other needs. FAA must show discipline in controlling
      costs and implement a credible cost-accounting system.
                                     DOTs Top 10 Issues



Infrastructure Needs



                                                                                     6
Congress has guaranteed $198 billion over the next 6 years for new or improved
highways, bridges, and mass-transit systems. The money must be spent wisely.
DOT must strengthen internal spending controls, oversee sound financial plan-
ning, promote use of cost-saving techniques and select high-priority projects for
discretionary grants.

Transportation and Computer Security



                                                                                     7
DOT must increase use of explosive-detection equipment in air-
ports, insist on compliance with cargo security rules, and devel-
op computer-network security safeguards. More work is needed
to protect the public from attacks in the transportation system
and shelter vital computer networks.
Financial Accounting as related to



                                                                                 8
the Chief Financial Officers Act
DOT has made significant improvements in accounting since the Chief Financial
Officers Act was passed. But DOT still needs to account for billions of dollars
of property and equipment, in order to obtain an unqualified opinion on its finan-
cial statements, a goal for Fiscal Year 1999.
Amtrak Financial Viability and Modernization



                                                                                 9
With strong leadership, intense management, and favorable eco-
nomic conditions, it will be possiblealbeit difficultfor
Amtrak to become operationally self-sufficient by 2003.
Nevertheless, Amtrak will require substantial and continuing
capital funding to support the system as it currently exists.

Implementation of the Government Performance



                                                                           10
and Results Act
DOTs initial steps in implementing GPRA have been very successful;
DOTs strategic plan was rated the best in government. DOT still faces a
difficult job collecting accurate outcome data, measuring progress, and
making programmatic changes.
Focus:

                       Objective: Improving trucking safety

                                                     safety

 Motor-carrier safety enforcement
 Motor-vehicle crashes claim more lives in the United States than any other mode of trans-
 portationat least 40,000 deaths per year. Some 5,300 of those lives are lost each year in
 crashes involving large trucks.

 OIGs auditors and investigators brought significant expertise to improve trucking-safety
 in recent months. They produced reports (TR-1999-034 and TR-1999-055) and
 Congressional testimony on related issues. They also investigated criminal cases which led
 to 25 convictions for offenses ranging from falsification of truck drivers logs to acceptance
 of bribes by officials who administer truck drivers licensing tests.

 Adequacy of Oversight
 OIGs auditors found:

       z      That DOTs main oversight agency for trucking safety, the Office of Motor
       Carriers in the Federal Highway Administration, has shifted emphasis from enforce-
       ment to a more collaborative approach to safety. As a result, few company-wide
       inspections (known as compliance reviews) are conducted, and when such reviews
       find violations that lead to fine assessments, those fines often are reduced to levels
       that fail to deter future violations. OMC inspectors averaged fewer than two com-
       pliance reviews per month in 1998; they spent the rest of their time on administra-
       tion, outreach and meetings.

       z     That OMC is not aggressively using tools at its disposalranging from pro-
       gressively stiffer fines to total shutdowns of scofflaw motor carriersto bolster
       enforcement. In a joint OMC-OIG review of five high-risk motor carriers, three con
       tinued to operate and violate Federal regulations despite past OMC civil penalties.

       z     That OMCs system for targeting motor carriers with the worst safety records
       is hampered by incomplete, inaccurate and untimely data.

       z      That DOTs goal of reducing the rate of deaths in truck crashes should instead
       aim to reduce the actual number of fatalities. Currently, actual fatalities can increase,
       yet the rate of deathas a function of miles traveledwill not immediately increase
       with them.

                                               4
                                                   Trucking Safety

Truck safetyinternational issues
Neither OMC nor the states bordering Mexicowith the excep-
tion of Californiaare doing enough to ensure that trucks enter-
ing the United States from Mexico meet U.S. safety standards.
More inspectors are urgently needed, more trucks should be
inspected, and responsibility for the work needs to be assumed
without passing the buck from one level of government to anoth-
er.


Organization
Over the past year, there has been a debate regarding the place-
ment of the motor-carrier safety function in DOT. Several
options are available; the two most viable are to leave it in
FHWAwith a clear mandate and expectation for improvement
or to establish a Motor Carrier Safety Administration.

To the fullest extent of the law
In addition to ongoingand highly productivework investi-
gating trucking firms that violate Federal safety regulations, OIG
investigators findings recently led to changes in the management
of the Office of Motor Carriers. OIG determined that some offi-
cials in OMC management had exhibited a less-than-arms-
length relationship with the industry they regulated by helping
direct a lobbying campaign against proposed Federal legislation
that would have moved trucking safety oversight to the National
Highway Traffic Safety Administration (NHTSA).
        OIG investigations completed during the 6-month period
covered by this report led to 25 convictions. The cases involved
falsification of drivers logs of hours on the road, falsification of
documentation, misrepresentation of trucks entering the United
States from Canada as NHTSA-certified and a bribery ring in
Illinois in which officials administering licensing tests to truck
drivers accepted payoffs in exchange for waving through appli-
cants who could not pass the tests.

                                            5
Focus:                                                  Government

                                     Objective:
     Assessing the Department of Transportations efforts to set, and achieve,
   strategic goals as required by the Government Performance and Results Act

 In 1993, Congress passed the Government Performance and Results Act (GPRA)
 to improve governmental performance and accountability. The law requires all
 Federal agencies to develop 5-year strategic plans, as well as annual performance
 plans and reports. DOT issued its first strategic plan in September 1997 and its
 first performance planfor FY 1999in February 1998. The Departments first
 performance report to Congress is due March 31, 2000.

 In a rating of agency strategic and performance plans by Congress, DOTs plans
 were found to be the best among those submitted by 24 Federal agencies.
 Congress has asked the inspectors general to take an active role monitoring imple-
 mentation of GPRA. In the Department of Transportation, we developed a
 Results Act Review Plan of performance measures and the accuracy of under-
 lying data and accounting systems.


                              We will audit the following DOT performance measures
                              during the next 6 months:

                                     x       Reducing near-collisions on runways

                                     x       Reducing death and injuries in large-truck
                                               crashes

                                     x       Reducing recreational boating fatalities

                                     x       Reducing the rate of operational error by
                                               air traffic controllers

                                     z       Ensuring strong implementation of DOTs
                                              Hazardous Materials Compliance and
                                              Enforcement program, a joint venture
                                              with the Research and Special Programs
                                              Administration co-chaired by OIG
                                         6
Performance and Results Act

 OIGs work to date
 Since October 1997, we have issued 26 audit reports that addressed DOTs
 GPRA work. We identified several areas for improvement:


 Performance goals are needed for:                     Performance goals
                                                       that need completion:
 x   FAAs personnel reform initiatives                x    FAAs work to halt diversion of airport revenue
 x   FTAs grants-management program                           to non-airport use
 x   The Federal Railroad Administrations             x    DOT efforts to reduce terrorism risks
         commuter-rail safety mission                          for U.S. passengers at foreign and domestic
 z   The Coast Guard postgraduate training program             ports and waterfront facilities


                         Performance goals needing improvement:
                         x   FHWAs motor-carrier program
                         x   FAAs contract-tower program



                          Performance data are needed for:

                          zDOTs consolidated financial statements for FY 1998
                          zHighway Trust Fund financial statements for FY 1998
                          zFAA financial statements for FY 1998




 Staff GPRA Training
 To improve our oversight of the Government Performance and Results Act, we
 developed a 2-day course titled Auditing GPRA Implementation. The course,
 being taken by all audit staff, addresses relevant GPRA regulations, policies and
 guidelines and OIG oversight responsibilities. It also offers approaches for audit-
 ing performance goals, measures, data and implementation strategies. To date, 90
 auditors have taken the course, including staff of the Army Audit Agency and OIG
 representatives from the Department of State and the Small Business
 Administration. Nearly 200 copies of the course material have been distributed to
 officials in the Department of Transportation, Congress, the Office of
 Management and Budget, and the community of inspectors general.
                                                        7
   Office of Inspector GeneralWork Planned and in Progress

In the interest of maximizing DOTs value to citizens, the Secretary of Transportation has developed a Strategic Plan setting pri-
orities for the appropriate deployment of Departmental staff and other resources. This chart illustrates major OIG work planned
and in progress in relation to the Secretarys priorities of Safety, Mobility, Economic Growth and Trade, Human and Natural
Environment and National Security.



Strategic goal: Safety                                           zAssess progress by Federal Railroad Administration
                                                                 and other operating administrations to implement the
zReview FAAs National Aviation Safety Inspection                Rail-Highway Crossing Safety Action Plan.
Program to find out if systemic weaknesses exist.
                                                                 zReview the U.S. Coast Guards progress in achieving
zReview Year-2000 computer problems affecting the                its goal of reducing recreational boating deaths.
aviation industry; review FAA action to identify scope of
such problems with air carriers and airports; review             zReview DOT and FAA roles and responsibilities for
FAA strategy to ensure such problems and attendant               assessing safety implications of airline code-sharing
risks are addressed.                                             agreements.

                                                                 zAssess FAA progress in implementing nationwide
zEvaluate effectiveness of FAAs inspection system for
                                                                 safety standards for oversight of the air tour industry.
makers of aviation fasteners.

                                                                 zReview the sufficiency of trucking safety oversight by
zFollow up on FAA actions to reduce runway incur-
                                                                 the Office of Motor Carriers (OMC).
sions.

                                                                 zPlace priority on OIG investigations affecting safety--
zReview Federal Highway Administration analysis of
                                                                 specifically HAZMATs, motor carrier safety and traf-
post-accident truck crash data and development of acci-
                                                                 ficking in unapproved aircraft parts.
dent-prevention measures.

Strategic Goal: Mobility                                         zEvaluate FAA progress in creating training and career
                                                                 development programs for maintenance technicians.


zReview FAA efforts to modernize the air traffic con-            zConduct baseline reviews of all DOT Megaprojects,
                                                                 highway and transit projects costing $1 billion or more.
trol system, including the Wide Area Augmentation
                                                                 Resulting data will be used to target subsequent in-
System, Standard Terminal Automation Replacement
                                                                 depth OIG reviews.
System, HOST computer system and Free Flight.

                                                                 zPerform in-depth reviews and, when appropriate, fol-
zAssess Amtraks 1999 business plan and its effect on
                                                                 lowup reviews of selected Megaprojects regarding
Amtraks ability to achieve operating self-sufficiency by
                                                                 costs, funding, and completion schedules.
2003.
                                                                 zWork with the Federal Railroad Administration to
zReview the Boston Central Arterys wrap-up insur-               develop risk-mitigating internal controls for its railroad
ance program to evaluate whether reimbursements are              loan programs.
appropriate and whether the program reduces project
insurance costs.                                                 zConduct investigations of fraud, waste and abuse in
                                                                 connection with major infrastructure projects.


                                                                 8
Strategic Goal: Economic                                           zConduct fraud-awareness briefings for Federal Highway

Growth and Trade                                                   Administration and Federal Transit Administration officials
                                                                   and for state and local FHWA and FTA grantees.

zEvaluate Departmental oversight of university research
studies and grants.

zInvestigate contract, grant, and procurement fraud.




Strategic Goal: Human and                                          zCoordinate, with RSPA and a team from all operating
                                                                   administrations overseeing hazardous materials, an evalu-
Natural Environment                                                ation of DOTs HAZMAT transportation program.

zReview Federal Highway Administration oversight of
                                                                   zPlace priority on investigations of hazardous materials
state use of Congestion Mitigation Air Quality program
                                                                   violations including participation in Environmental Crime
funds in reducing pollutants and greenhouse gases.
                                                                   Task Force operations in multiple geographic locations.

zEvaluate the Maritime Administrations progress toward
                                                                   zReview the U.S. Coast Guards program for removing
its goal of scrapping obsolete vessels.
                                                                   abandoned barges from the nations waterways.


Strategic Goal: National                                           zAssess the effectiveness of Maritime Administration inter-
                                                                   nal controls ensuring accuracy of payments under the
Security                                                           Maritime Security Program.

zReview FAA oversight of the security of checked baggage
                                                                   zContinue oversight of DOT work on Year-2000 computer
on flights within the United States.
                                                                   problems.

zAssess progress by FAA, airport operators, and air carri-
                                                                   zWork with chief information officers throughout the
ers in correcting security weaknesses in the area of access
                                                                   Department to enhance computer security.
control.

Corporate Management Goals
                                        zEvaluate the Turner-Fairbanks Highway Research
                                                                   Centers acquisition policies, procedures and practices.

                                                                   zReview FAAs cost-accounting system.
zWork proactively with DOT financial managers to correct
material weaknesses in their accounting systems in an effort       zReview the effectiveness and efficiency of the
to achieve unqualified, or clean, audit opinions on perti-       Transportation Administrative Services Center (TASC).
nent financial statements.

zReview FAAs efforts to implement its Acquisition
Management System.




                                                               9
                   Alameda Corridor: job claims subject to misinterpretation

                   At the request of California Congresswoman Juanita Millender-McDonald
                   and Secretary of Transportation Rodney Slater, we reviewed employment
                   and training (report TR-1999-010) on the Alameda Corridor Project in Los
                   Angeles (artists rendition at left). The project will facilitate shipping-to-rail
                   transit from the Port of Los Angeles. We found that job-creation claims by
                   the authority managing the project could be misinterpreted. The project will
                   not employ 10,520 people at any one time; rather, there will be an average
                   of 1,300-1,500 jobs per year over the project's 7-year life, and about 400
                   jobs a year will be filled from local communities. We also found the author-
                   ity needed controls to ensure corridor residents have access to its training
                   program, and that all trainees are corridor residents.




FAA, NASA should improve research coordination

In response to concerns voiced by members of the National Airspace System
Modernization Task Force, the inspectors general of the Department of Transportation
and the National Aeronautics and Space Administration audited research and develop-
ment coordination between NASA and the Federal Aviation Administration. We con-
cluded (in report AV-1999-008) that FAA and NASA should enhance their coordina-
tion efforts and ensure the most cost-effective use of resources by improving mecha-
nisms essential to the coordination process. We identified five areas in which the agen-
cies could improve coordination while still recognizing their evolving roles and sepa-
rate approaches to achieving shared goals. FAA and NASA officials agreed with our
recommendations and are taking appropriate actions.


                   Coast Guard contractor pays civil settlement
                   in protective-gear swindle

                   Jeffrey Weinsten of North Salem, NY, proprietor of Protective Textiles, Inc.,
                   entered into a $57,000 civil settlement agreement with the government. The
                   U.S. attorney in Brooklyn sought $129,000, plus interest, from Weinsten for
                   his misrepresentation of the quality of 400 chemical protective suits
                   (chemsuits) sold to the U.S. Coast Guard. The suits earlier were rejected
                   by the Department of Defense. The Coast Guard had procured the chem-
                   suits for use during Operation Desert Storm. Weinsten, convicted of mail
                   fraud, was sentenced to 12 months' probation, 6 months' home detention, a
                   $2,000 fine, and payment of $36,000 in restitution. The case was investi-
                   gated by OIG and DCIS.

                                          10
                                                                   October 1998

          FAA improperly paid nearly half a million dollars
          in home leave, post differential benefits

          Home leave benefits provide U.S. Federal employees stationed overseas additional vacation
          time and travel benefits to return home to the U.S. In our review (report FE-1999-009) of
          38 employees' receipt of home leave, we identified 4 who were ineligible to get it and anoth-
          er who used it improperly. For example, 2 FAA employees who were natives of Guam and
          had joined FAA at a Guam facility were granted some $65,000 worth of home leave and
          related benefits to return to the United States, even though they had been stationed in the
          U.S. only briefly. Of the 38 employees reviewed, 19 also received post differential benefits,
          a form of additional compensation based on overseas location; of those, 3 improperly
          received the post differential. In all, FAA improperly paid or provided home leave and post
          differential benefits of about $478,000. FAA and FHWA agreed to take corrective actions.


FAA: Expand use of explosives-detection systems

FAA and the aviation industry are deploying sophisticated explosives-detec-
tion equipment at U.S. airports. In our audit of this process (AV-1999-001)
OIG found some installations delayed, while others were done in a manner
that hampered efficient operations. We found that some airlines were not
screening as much baggage as the equipment could handle and the perform-
ance of the equipment at the airports differed from performance test results
in the laboratory. FAA had not finalized agreements with airlines about own-
ership and maintenance of the equipment. We urged FAA to involve indus-
try in the deployment processFAA, the airlines, and airport operatorsin
creating a strategic plan to address not only deployment siting but also
research, certification, data analysis and enforcement. FAA partially agreed.




          Stolen part use in aircraft repair prompts jail term, fine

          Robert Ruhe, owner of Ohio Turbine Center, Inc., was sentenced by a Federal judge in
          West Virginia to 12 months and 1 day in jail, 3 years' probation, and a $12,000 fine. Ruhe
          was charged with aiding and abetting the transportation of stolen property in interstate
          commerce. Ruhe and co-conspirators stole used scrap engine parts from a Pratt & Whitney
          engine-repair facility in West Virginia and took them to Ruhes repair station in Ohio,
          where Ruhe removed tags from the parts designating them as unserviceable and then used
          the parts to overhaul Pratt & Whitney engines. The case was investigated by OIG and the
          FBI.



                                                      11
Falsehood in cylinder-testing case spurs jail, $10,000 fine

A U.S. District Court Judge handed William B. Courtney, owner of a now-
defunct Memphis, TN fire-protection company, a term of 6 months in jail fol-
lowed by 2 months' home confinement on a charge of mail fraud. Courtney
also sentenced to pay a $10,000 civil fine to the Research and Special
Programs Administration (RSPA) and to pay $1,380 in restitution to victims
had falsely certified that compressed-gas cylinders handled by his firm had
been tested and found free of potentially hazardous cracks or other flaws. He
pleaded guilty to the charge. Courtneys incarceration will be followed by 2
years supervised release. The case was jointly investigated by OIG, RSPA (a
DOT administration regulating transportation of hazardous materials) and the
FBI.




                     12
     October 1998





13
                 Amtrak: operational self-sufficiency dependent on
                 improvement in strategic business plans
                 OIG completed an assessment of Amtraks financial condition and require-
                 ments through FY 2002. The assessment (report TR-1999-027) found that
                 Amtraks financial statements are accurate, but that its March 1998 Strategic
                 Business Plan would not enable Amtrak to reach its Congressional mandate
                 of operating self-sufficiency by 2003. Amtrak has enough capital over the
                 next 2 years to complete most of its 1998 business plans and implement high-
                 speed rail along the Northeast Corridor. But expected Federal funds are like-
                 ly to fall $500 million short of even Amtraks minimum capital needs by
                 2003. If Amtrak does not significantly improve operations, OIG projects
                 additional cash shortfalls that would further constrain Amtraks ability to
                 make critical capital investments.




Iowa trucking company, owner,
drivers sentenced in log fraud

A Cedar Rapids, IA trucking company, its owner and six drivers were sentenced in
Federal Court for falsification of logs tracking drivers hours on the road. Shuttle
Service XPress was fined $50,000 plus a $200 special assessment and placed on 3
years probation. Its owner, John Hoth, was sentenced to 6 months in community cor-
rections and a fine of $23,632. Hothwith the other defendantswas convicted of
conspiracy and making false statements. Hoth also will serve 3 years supervised
release. Six drivers for the firmWilliam Boots, Ted R. Wille, Tony J. Wille, Michael
J. Fannon, James A. Nelson and Michael A. Nelsoneach were sentenced to 2 years
probation and fined $1,500.


                Resignation spurred by gas line safety case

                The Natural Gas Pipeline Safety Act of 1968 requires lining of metal gas
                lineswhich can leakwith plastic inserts to prevent such leaks (see photo
                at left). A former superintendent for the Dublin, GA natural gas utility, who
                resigned facing allegations he had falsely represented that his towns gas
                service lines complied with that law, will see felony false statements
                charges dropped if he successfully completes a pretrial diversion agreement
                offered by the local U.S. attorney. If Earl Blackstock, who headed the gas
                utility in Dublin, stays within the law for a year and reports regularly to a
                Federal probation officer, charges will be dropped.




                                      14
                                                           November 1998

         FTA grants: establish performance goals, rapidly recycle unspent funds

         Our review (report FE-1999-016) of the Federal Transit Administration's oversight of grant-
         fund expenditure showed that FTA could use its grant money more wiselyfunding more proj-
         ectsif it would take steps to reallocate excess funds on existing projects. Currently, FTA uses
         two review programs to monitor grantee spending, and supplements those reviews by periodi-
         cally notifying its regional offices to scrutinize grants for excess funds. Nonetheless, we found
         an estimated $57 million in excess funds on completed and inactive grants. Reallocation of
         these excess funds had not been aggressively pursued. By setting performance goals and
         promptly de-obligating excess funds, FTA could put the funds to use on other transit projects.
         The FTA associate administrator for program management agreed with our findings.




Three sentenced to 32-1/2 years in airport project extortion

Two New Jersey men and a New York resident were sentenced in Newark, NJ
Federal court on charges ranging from extortion to wire and mail fraud and
violation of the Federal racketeering statute. Rosario Gangi of Brooklyn, NY,
John Albert of North Brunswick, NJ, and Vincent DiModica of Belleville, NJ
were alleged to have extorted paymentsbacked by the potential of labor
unrestfrom Omni-Vanessa, a joint-venture contractor on the Newark
International Airport monorail project. Gangi was sentenced to 5 years and 10
months' incarceration and ordered to pay $50,550 in fines and restitution;
Albert was sentenced to 9 years and 2 months' imprisonment and ordered to
pay $50,550 in fines and restitution, and DiModica was sentenced to 17-1/2
years' imprisonment and fined $200. The case was handled by the FBI and the
New Jersey U.S. attorneys office, with the assistance of OIG.

          FAA: Improve thoroughness, objectivity
          in handling hotline complaints

          Our audit (MA-1999-017) found that FAAs process for handling referrals from the OIG and
          the FAA Administrators hotlines needs improvements to ensure that complaints of fraud,
          waste, and abuse are thoroughly and objectively reviewed. Specifically, 12 percent (6 of 52)
          of the hotline referrals selected for review were deficient in terms of the thoroughness or objec-
          tivity of the reviewer, or corrective action was not taken. Also, FAA had not prepared guidance
          for conducting reviews or procedures to ensure corrective actions were taken when warranted.
          These deficiencies impair the integrity of the hotlines and the Department can be subject to crit-
          icism that allegations of fraud, waste, and abuse are not aggressively pursued. We made rec-
          ommendations designed to help FAA ensure that all hotline referrals are thoroughly and objec-
          tively reviewed and action is taken. FAA agreed with all recommendations.
                                                      15
State of Utah should identify funding needed
to cover all I-15 project costs

OIG looked at the reconstruction of Interstate-15 in and around Salt Lake City, UT (report TR-
1998-028) as one of several "Megaprojects" reviewed during the past year. We found the project's
cost estimates reasonable, and work ahead of schedule. I-15 is slated for completion in July 2001
and will replace 6 lanes with 8 lanes for 16.5 miles, will add High Occupancy Vehicle (HOV) and
ramp lanes in each direction, and will rebuild more than 130 bridges. However, we found that
the Utah Department of Transportation had not identified the funding necessary to cover all the
projects estimated $1.6 billion cost, and that a fund financing the state share of the project may
face funding shortfalls of as much as $38 million by 2001. We recommended that FHWA require
Utah's DOT to keep its finance plan current. FHWA concurred and will require Utahs trans-
portation department to prepare yearly financing updates; UDOT agreed to do it.

                           Trucker in fatal crash gets jail time,
                           $145,000 restitution order

                           A Florida trucker who had falsified his hours-of-service logs prior to his
                           involvement in a fatal accident in Pennsylvania was sentenced to 21
                           months imprisonment and payment of more than $145,000 in restitution.
                           Bennie Hiltons sentence on the Federal false-statements charges, to
                           which he pleaded guilty, came in addition to his earlier sentence in a state
                           court on a charge of vehicular homicide. In May 1997, Hiltons tractor-
                           trailer crossed the center line and struck 5 vehicles, causing one death and
                           serious injuries (see site photo at left). He was sentenced to a years
                           imprisonment and a fine of $1,800 on the state charges.




Controllers-as-supervisors plan needs enhancements to preserve safety

In our audit (no. AV-1999-020) we found that FAAs agreement to reduce the number of air traf-
fic control supervisors will not have an adverse effect on the safety of air traffic operations, if
FAA first identifies and delegates the duties that a controller-in-charge will assume from super-
visors. Before it phases in the supervisory cutbacks, FAA should identify job functions currently
performed by supervisors that will be assumed by controllers-in-charge; give those controllers the
same authority and responsibility supervisors have in overseeing air traffic operations; train con-
trollers-in-charge to handle the new duties and responsibilities they will assume from supervisors,
and ensure that management retains the right to select controllers-in-charge. FAA must also devel-
op quality-assurance procedures to measure the impact of reductions on each facility and make
corrections when necessary. FAA agreed with our recommendations.


                                               16
                                                        November 1998

   Three sentenced in $17 million fuel-tax-evasion scheme

   Three New York men were sentenced for their roles in a scheme to evade $17 million in fuel
   excise taxes. Federal judges sentenced Charalabos Bakalis of Brooklyn to 6 months in jail and 6
   months' home confinement; Paul Krass of Brooklyn to 4 months' home confinement and 5 years'
   probation, and Thomas Rontiris of Floral Park to 5 years' probation. In 1997, the trio and 6 oth-
   ers were charged in connection with an alleged scheme that benefited Olympian Energy of New
   Jersey, Olympian Energy of New York, Petrosourge, Inc., GB International, and Y&B Petroleum.
   The Long Island Motor Fuel Tax Evasion Task Force, whose members include OIG, Department
   of Justice prosecutors and agents of the Internal Revenue Service, investigated.




Sentences, fines imposed in hazardous waste
transport and dumping

Izhak Ponie of Pompano Beach, FL and John Martin of Fort Lauderdale, FL
were sentenced in U.S. District Court in Fort Lauderdale for the illegal
transport and dumping of hazardous, flammable waste. The two men
moved half a dozen 55-gallon drums of flammable liquid to the grounds of
the Hollywood/Fort Lauderdale International Airport, where they dumped
it. Ponie was sentenced to 6 months' home confinement, fined $2,000 and
placed on 3 years' probation. Martin was handed 3 years' probation and a
fine of $2,000. The case was jointly investigated by OIG, the
Environmental Protection Agency, the FBI and the Florida Marine Patrol.



   Imprisonment, hard labor, fine
   for Coast Guardsman convicted of theft

   Following a 3-week military trial in Norfolk, VA., a U.S. Coast Guard machinery technician 2nd
   class was convicted of theft of government property, making false statements, and wrongful dis-
   position of government property. Michael Fitzgerald was sentenced to 2 months' confinement, 3
   months' hard labor and a $1,200 fine. He had been charged with theft of $10,000 worth of tools
   and supplies, making a false statement to investigators, filing a false Report of Survey, conspira-
   cy to steal government property, and transporting stolen government property. The case was joint-
   ly investigated by OIG and the Coast Guard Investigative Service.



                                                  17
Surface Transportation Board needs better documentation
of its fee-assessment practices

The Surface Transportation Board, created in 1996 by Congress, approves or vetoes railroad
mergers and line abandonments and mediates disputes between railroads and shippers. From the
board's inception through last September 30, fees collected from users have covered 15.7 percent
of STB's operating costs. In our audit (report CE-1999-021) we reviewed the board's approach-
es to setting its user fees. We concluded that STB cannot fully fund its operations through user
fees without new statutory authority from Congress and that "time and motion" studies current-
ly used by the board to set fees in the absence of a cost-accounting system need to be updated
and better-documented. We agreed it is unlikely STB, a small agency, can afford a full cost-
accounting system. We also found that when STB trims user fees on a case-by-case basis to guar-
antee reasonable access to the board's services, uniform criteria should apply. STBs chairman
asked OIG for a follow-up review (CE-1999-059). We found STB had improved its means of
setting user fees and expanded its revenue-collection efforts. We found this responsive to our
prior recommendations.

                          City of Syracuse must support labor costs
                          in airport accounting

                          In an audit of Hancock International Airport revenue use by the sponsor-
                          ing city, Syracuse, NY, OIG found that airport revenues generally were
                          used properly for airport operating and capital costs. However, the audit
                          (AV-1999-029) also found that the city billed the airport $431,000 in
                          labor costs based on unsupported data, and was 5 months and 17 months
                          late in submitting airport financial records to the FAA during the past 2
                          fiscal years. As a result of our recommendations, FAA also amended the
                          city's master grant agreement to require Syracuse to direct its independ-
                          ent auditors to review and express an opinion on the airports use of rev-
                          enue.


Firm pleads guilty to concealing flammable liquids
bound for air transport

A Florida freight-forwarding company pleaded guilty to illegally offering hazardous materi-
als to a commercial airlinematerials that had not been properly documented and had been
concealed in the shipment. Transnational Aviation Systems, Inc., doing business as STAF
Airlines, Inc., of Miami, will be placed on probation, fined $10,000, and required to pay
another $90,000 to the Miami-Dade County Fire Department to enhance its hazardous mate-
rials response. Transnational failed to label and manifest hazardous liquids in a shipment on
pallets, which had been wrapped with opaque plastic to conceal the contents. The investiga-
tion was done by OIG and the FAA.

                                            18
     November 1998





19
              More safety inspections needed on trucks
              entering U.S. from Mexico

              Our report on truck-safety inspections at the U.S.-Mexico border (TR-1999-
              034) found that FHWA had not provided reasonable near-term assurance that
              Mexican long-haul trucks entering the United States would comply with U.S.
              safety regulations. With the exception of California, neither FHWA nor state
              plans provide enough commercial truck inspectors at border crossings. We con-
              cluded that far too few trucks are being inspected at the U.S.-Mexico border,
              and that too few of those inspected comply with U.S. standards. Of those
              Mexican trucks inspected, about 44 percent were removed from service
              because of serious safety violations. This contrasts with a 25 percent out-of-
              service rate for U.S. trucks and a 17 percent out-of-service rate for Canadian
              trucks.



Florida van line, owner guilty
in hazardous waste-dumping scheme

Latin Van Lines, Inc. and its owner, Manuel Rojas of Miami, FL, pleaded guilty
to illegally storing hazardous wastes. Rojas, who allegedly attempted to con-
tract for the illegal dumping of 37 drums of waste but was caught in an under-
cover operation, agreed in his plea in Federal Court in Miami to pay a fine of
$100,000 and make $53,000 in restitutionto reimburse agencies for costs of
identifying, and properly disposing of, 9 drums of paint wastes. OIG, EPA, the
FBI and the Florida Marine Patrol jointly investigated the case.


              Air traffic control: Increase training on HOST backup system

              FAA expects to place more reliance on the Direct Access Radar Channel
              (DARC) in the next year while putting new HOST computers in service. At
              some centers, DARC reliance could be significant. In our audit report (AV-
              1999-030) we identified some drawbacks to relying on DARC as a backup to
              the HOST computer system, a crucial air traffic control component. Use of
              DARC reduces controller efficiency because manual processes replace
              HOST's normally automated flight data functions. Many controllers are not
              proficient manually controlling air traffic using DARC, not having worked
              the midnight shift when DARC currently backs up planned HOST shut-
              downs. We recommended that FAA provide DARC training to all center air
              traffic controllers. FAA agreed to provide such additional training as neces-
              sary.



                                   20
                                                          December 1998

          Helicopter repairman jailed for phony rotor-blade certification

          Ronald Garlick, owner of Garlick Helicopter, Inc. of Hamilton, MT, was jailed 12
          months and a day for fraudulently certifying the airworthiness of helicopter rotor blades.
          A U.S. District Court judge sentenced Garlick to the incarceration, a fine of $20,000, 3
          years of probation and 500 hours of community service. Garlick was involved in a
          scheme to alter rotor blade records tracking their hours in use; blades with more "life"
          left have greater value than "timed-out" blades. Garlicks scheme was discovered when
          military records were compared with Garlicks fraudulent records. The case was jointly
          investigated by OIG and the FBI.



Coast Guard: resolve patrol boat acquisition issues

Our October 16, 1998 report on acquisition of new coastal patrol boats (MA-
1999-033) recommended that the Coast Guard seek tentative approval for
full-rate production. We recommended a delay in full production pending
resolution in three areas: issues identified in operational tests and evalua-
tions; proposed engineering changes identified during testing of the lead
boat, and the number of boats to be acquired. On November 5, 1998, the
Transportation System Acquisition Review Council approved full-rate pro-
duction of the patrol boats but limited the number that could be produced
until the Coast Guard revised its justification for acquiring 50 boats. In a
mid-November written response to our report, the Coast Guard concurred
with all 3 recommendations and cited plans and actions to resolve the issues
identified. We consider them responsive to our recommendations.




          Minnesota trucking company sentenced for falsification

          Barry Sather Truck Service Inc., a Brooklyn Park, MN trucking firm, was sentenced in
          Federal court to a $15,000 fine and 24 months' probation. Sather was sentenced to 6
          months' home confinement, a year of probation and a fine of $5,800. The corporation,
          its owner Barry Sather, its general manager Michael Koshenina and 2 drivers, Kenneth
          Nelson and Samuel Sand, pleaded guilty to conspiracy and making false statements for
          falsifying drivers hours-of-service records.




                                                   21
DOT's top 10 management issues

In response to a request from the Majority Leader and Chairman of the Committee on
Government Reform and Oversight in the U.S. House of Representatives, we identified the 10
top-priority management issues facing the Department of Transportation. In the report (TW-
1999-031) which included synopses and detailed briefing papers referencing the relevant
strategic goals of the Departments Strategic Plan, we grouped the 10 issues into the follow-
ing areas: 1) aviation safety; 2) surface transportation safety; 3) Year-2000 computer issues;
4) air traffic control modernization; 5) FAA financing; 6) surface, marine, and airport infra-
structure needs; 7) transportation and computer security; 8) financial accounting as related to
the Chief Financial Officers Act; 9) Amtrak financial viability/modernization; and 10) DOT
implementation of the Government Performance and Results Act. For more detail on these
issues, see the Focus section of this publication, page 4.




                         False NHTSA documents trigger fine

                         Claudia Keller was sentenced to 2 years' probation and fined $2,000 in
                         Toledo, OH Federal court for falsifying NHTSA documents. Keller was
                         charged with 12 others in a scheme to smuggle non-NHTSA-compliant
                         truck tractors into the U.S. from Canada. The enterprise purchased the trac-
                         tors in Canada using Colombian drug money, and was in part an attempt to
                         launder those funds. NHTSA certifications for the tractors were forged so
                         the vehicles would clear U.S. Customs. The case was jointly investigated by
                         a task force including DOT/OIG, the U.S. Customs Service, the Internal
                         Revenue Service and the Department of Labor's inspector general.




                                           22
     December 1998





23
Review of prohibited lobbying leads to
change in leadership

OIG's investigation of prohibited lobbying activities within the Office of Motor Carriers uncov-
ered violations of specific rules that left the impression no arms-length relationship existed
between senior officials of OMC and the trucking industry they regulate. FHWA's Administrator
responded by appointing a new associate administrator for motor carriers; other OMC staff mem-
bers were reassigned. OIG forwarded its findings to Chairman Frank Wolf of the House
Transportation Committee's Appropriations Subcommitteewho requested the investigation
and several other Congressional oversight committees.



        $100 million in DIA funds might be used redeveloping ex-airport

        Our audit (AV-1999-052) showed that the City and County of Denver, sponsor
        of Denver International Airport, might use airport revenues to redevelop prop-
        erty at the former Stapleton International Airport beyond what will be necessary
        to dispose of the property. The city estimates that as much as $100 million in
        additional revenue from the newer airport will be spent over the next 15 years
        to dispose of Stapleton property valued at $58 million. The city could not esti-
        mate what additional revenue could result from Stapletons disposal to offset the
        $100 million cost and retire the newer airport's debt. Further, the city inappro-
        priately used $1.2 million in DIA revenues for indirect administrative costs,
        investment service fees, maintenance of a transit authority facility and a study
        for a transit project not on airport property. We also found DIA lost as much as
        $1.2 million by not being as self-sustaining as possible.



Staff dentist, aide disciplined in misuse of Coast Guard facility

Following an anonymous tip, an OIG investigation revealed that a senior U.S. Public Health
Service dentist assigned to the U.S. Coast Guard falsified time and attendance reports and used
his Coast Guard-provided dental office to give treatment to his parents and a third ineligible per-
son. The senior dentist and chief of the Clinical Services Division and a dental technician both
were found to have unauthorized absences from duty. OIG also determined that the unauthorized
use of Coast Guard facilities and materials caused a loss of more than $18,500. The technician, a
contract employee, was fired, and the dentist, a Public Health Service officer, was reassigned
pending possible action under the Uniform Code of Military Justice. OIG recommended that clos-
er controls be applied to attendance and inventory in the Coast Guard's Dental and Medical Clinic.



                                               24
                                                                     January 1999

        FAA should strengthen procedures for future
        airport development compensation programs

        OIGs audit (AV-1999-048) of FAAs compensation program for expansion of the Dallas-Fort
        Worth Airport showed that FAA ensured fair treatment of those displaced by the Federally
        assisted project. FAA also made sure the airport used separate companies to appraise and
        review appraisals of land acquisitions. However, FAA did not make sure all the acquisitions
        were efficient and cost-effective. For example, FAA approved Federal assistance for 66 homes
        that were ineligible because they were built after the airport issued public notice of its noise-
        exposure areas. FAA also let the airport acquire homes outside the noise-mitigation area and
        use inappropriate appraisal methods. We recommended newor strongerFAA procedures
        for future airport development compensation programs.



Phony references on monorail construction bid trigger fine

The owner of a New York construction firm was handed a fine of $2,000 and
sentenced to 3 years' probation for his role in a scheme to defraud a DOT
grantee, the Port Authority of New York and New Jersey. Gaetano J. Spaziani
of Westchester County, NY, the owner of Omni of New York Construction
Corp. was sentenced in Newark, NJ Federal court. Spaziani pleaded guilty to
mail fraud for providing false professional and financial references during bid-
ding on an airport monorail construction contract at the Newark Airport. Three
other defendants were convicted of extorting payments from the contractor on
the project. The prosecutions followed an investigation by the FBI, assisted by
OIG.




       Coast Guard overstates real estate value by at least $800 million

       Though the U.S. Coast Guard has made progress accounting for, and valuing, its real estate in
       the past 2 years, our review of those practices (FE-1999-051) showed inaccurate data were
       used to compute current value, historical cost, and depreciation. Further, the Coast Guard did
       not provide adequate documentation to support the value of current acquisitions. We estimate
       the value of Coast Guard's real property to be between $650 and $820 million, excluding land
       compared with its valuation of $1.6 billion as of September 30, 1998. If not addressed, these
       deficiencies could affect our audit opinion on the Department's FY 1999 financial statements.
       The Coast Guard chief financial officer agreed with our conclusion and took corrective action.


                                                      25
Four sentenced in $140 million fuel-tax evasion scheme

Four men were sentenced in a $140-million fuel-tax evasion scheme that involved 25
defendants. Sentenced were David Wasserstrom of Bethlehem, PA, who will serve 1 year
and 3 months in jail, 3 years' supervised release and must make restitution of $10,000; Ilya
Goradetsky of Brooklyn, NY, who will serve 1 year and 1 day in jail, 3 years' supervised
release and must pay $8,000 in restitution; Kevin Ginty of Kingston, NY, who will serve
6 months in a halfway house, 5 years' supervised release, and must pay restitution of
$25,000; and Richard Santo of Havertown, PA, who will serve 4 months in jail, 4 months'
home confinement, and 3 years' supervised release and must make restitution of $7,200.
The casesrelated to the Enright, Hampton and Yusim prosecutions on p. 29were
investigated by a task force including the Internal Revenue Service, the FBI and OIG.




                    Manager of aviation security firm pleads guilty
                    in verification fraud

                    Guillermo Blanco, a former Miami police officer, pleaded guilty to making
                    false statements to the FAA and transporting a minor in interstate commerce for
                    illegal activity. As general manager of Aviation Safeguards, a contract securi-
                    ty company, Blanco falsely certified that background employment verifications
                    had been made on 22 employees, which gave them access to secure areas at
                    Miami International Airport. The employees screen passengers and provide
                    pre-flight security checks on flights to Cuba. The guilty plea on the interstate
                    transportation charge stemmed from an 18-month sexual relationship with a
                    boy who was 14 years old at its inception. OIG investigated the case with the
                    Miami-Dade County Police Department, the FAA and the FBI.


Three jailed in $17 million fuel-tax evasion scheme

Mark Tune, Bella Wolfson and Igor Glazer of Brooklyn, NY and Gary Braverman of New
York City were sentenced in Hauppauge, NY Federal court. Tune and Wolfson each were
sentenced to 37 months' imprisonment and a $10,000 fine. Braverman was sentenced to
22 months' imprisonment and a $5,000 fine. Glazer was ordered jailed 22 months. All the
defendants were also placed on 3 years supervised release following their prison terms,
and are required to cooperate with the IRS in filing correct tax returns and payment of
back taxes. They were among 9 defendants charged in 1997 in with a $17 million tax-eva-
sion scheme involving 5 companies. The case was investigated by a task force including
agents of the Internal Revenue Service and OIG.


                                          26
                                                          January 1999

Pretrial diversion ordered in gas pipeline
records-falsification case

A former supervisor at a natural gas company must meet several qualifications to avoid
prosecution for allegedly falsifying maintenance and testing records. Paul Russell of
Florence, ALa former supervisor for a Tennessee gas-pipeline firmentered a pretrial
diversion pact with the U.S. attorney after Russell allegedly told his employees to falsify
relief-valve maintenance and testing records prior to a 1996 inspection by the Research and
Special Programs Administration, which oversees gas-pipeline safety. Russell must com-
plete 40 hours of community service and report regularly to a probation officer to avoid
felony charges. The investigation was conducted by OIG and by RSPA's Office of Pipeline
Safety.




       Truck-stop owner sentenced in tax-evasion scheme

        Mario Arvanitis, owner of Marios Truck Stop in Detroit, MI, was sen-
       tenced in Wayne County Circuit Court to a fine of $46,000, 100 days
       of community service and 5 years' probation. Arvanitis was among 12
       gas station or truck-stop operators charged with scheming to defraud
       the Michigan Department of Revenue out of diesel-fuel taxes. The
       Detroit Motor Fuel Excise Tax Evasion Task Forceincluding
       DOT/OIG, the Department of Justice, the FBI, the IRS and the
       Michigan State Policeinvestigated the case.




                                            27
                      Airline departure data not uniform, sometimes inaccurate

                      We found that the 10 largest air carriers are using 4 different methods to report
                      departure times. As a result one aircraft could be reported as departing on time,
                      when another in the same situation could be reported as leaving late. In report
                      CE-1999-054, we also found that of 10 air carriers, 2 may be reporting inaccu-
                      rate departure times to DOT. One carrier reported departure for 16 flights that
                      OIG observed still had passenger doors open. We also found that between 1988
                      and 1997, 73 percent of domestic routes to and from the 28 largest U.S. airports
                      witnessed increases in actual gate-to-gate timessome as much as 20 minutes.
                      Such increases not only affect the flying public, but also result in significant costs
                      to the air carriers, spurring up to $553 million in additional operating expendi-
                      tures in 1997.


Former MARAD official sentenced for taking gratuity

Former MARAD official William F. Martin of Virginia Beach, VA, was sentenced to 6 months'
home confinement, to 3 years' supervised release, and to make restitution of $11,360. In
November he pleaded guilty in Federal court to soliciting and receiving an unlawful gratuity,
and resigned his post later that month. While serving as a ship operations and maintenance offi-
cer for MARAD in Norfolk, Martin accepted $11,360 in exchange for his influence in steering
repair contracts to a front company represented by an undercover agent. In return for the pay-
ment, Martin tried to steer government repair contracts to the fictitious firm, instructing subor-
dinates to consider that company on bids for repair contracts. Martin also provided confidential
government documents to the undercover agent. The case was investigated by OIG, the FBI,
NCIS, and DCIS.



                      FAA: Monitor airport revenue use on BART Extension to San
                      Francisco International Airport

                      FAA gave adequate guidance to the airport about the use of airport revenue for
                      project costs for its facilities and operating expenses. In our audit (AV-1999-056)
                      we found that the cost-allocation plan for fixed facilities considered FAAs guid-
                      ance sufficiently, and allocated costs reasonably. Further, our review through
                      September 1998 found airport revenue spending for fixed facilities consistent
                      with the plan. But proposed cost allocation for operating systems was based on
                      outdated engineering estimates, rather than actual contract bid amounts. It allo-
                      cated $2.6 million in ineligible costs to the airport. We advised FAA to monitor
                      airport revenue use for conformance to regulations and FAA guidance. FAA offi-
                      cials agreed with all report recommendations.

                                            28
                                                                  February 1999

           Three jailed in $140 million fuel-tax scheme

           Daniel Enright of Mullica Hill, NJ, was sentenced to 16-1/2 years in prison and to pay
           restitution of $1 million; he also must serve 3 years' supervised release. In a 9-month trial
           Enright was convicted of conspiracy, money-laundering, wire fraud, tax evasion, and cur-
           rency reporting violations. He was the ringleader in a $140 million motor-fuel tax-eva-
           sion scheme involving 25 defendants. Codefendant Thomas Hampton of Kill Devil Hills,
           NC was sentenced to 15 months' imprisonment and to make restitution of $10,000. A co-
           conspirator, Igor Yusim of Los Angeles, CA, was sentenced to 15 months in jail, 5 months
           in a halfway house, 2 years' supervised release, a $3,000 fine, and to make $6,000 in resti-
           tution. The cases, related to the Wasserstrom, Goradetsky, Ginty and Santo prosecutions
           on p. 26, was investigated by a task force including OIG, the IRS and the FBI.


Trucking firm, owners, drivers sentenced for fraud

Blackwell Auto Brokers Inc., owners John and Linda Blackwell and drivers Joe
Eddins Jr. and William Watford were sentenced February 4 for conspiracy to
commit fraud. The Blackwells let unqualified drivers, including Watford and
Eddins, drive commercial trucks and provided false ID for the drivers to show
regulators; the Blackwells also gave false information to their insurance compa-
ny so Watford could get liability coverage. A U.S. District Court judge fined the
corporation $12,000 and placed it on 24 months' probation. The Blackwells each
were fined $2,000 and must pay restitution of $3,362 and serve 5 years' proba-
tion. John Blackwell, further, must serve 6 months in a halfway house. Watford
was sentenced to 4 months' home confinement and 5 years' probation. Eddins
was sentenced to 100 hours of community service and 5 years' probation.



           FAA manager pays $10,600 false claim-
           benefit misuse settlement

           A manager with FAA executed a $10,600 settlement agreement with the U.S. attorney for
           the District of Columbia. He submitted a permanent change-of-station questionnaire to
           FAA that falsely stated he was married. As a result, he received more money for reloca-
           tion expenses than he was entitled to. He agreed to pay repay $4,300 plus interest. He also
           redeemed frequent-flyer benefits accrued through official government travel. He agreed to
           reimburse $5,000 for personal trips to Paris, Mexico City, Puerto Rico, and South
           America.




                                                         29
Painting company pleads guilty to illegal burial of hazardous
waste

Circle S Inc., a Hebron, MS sandblasting and painting company, pleaded guilty in
Federal court to charges stemming from illegal burial of waste paint and solvent
drums on 2 parcels of company-owned land. The firm was fined $5,000 and placed
on 5 years' probation. The investigation was conducted by OIG, the FBI, and the
EPA, with assistance from Mississippi Department of Environmental Quality.




             Contractor sentenced in bribery case

             Massimo Marino, a vice president of Modern Continental Construction
             Company, Inc. of Cambridge, MA, was sentenced to 22 months' probation and a
             $10,000 fine. Marino pleaded guilty to ordering the provision of free work and
             materials worth more than $10,000 to Joseph Monteiro, an employee of the
             Massachusetts Bay Transportation Authority, in an attempt to influence
             Monteiro's actions. The transit authority is a DOT grantee, and Modern holds a
             contract on the authority's Old Colony Railroad project. In January, Monteiro, a
             former MBTA engineer, pleaded guilty to tampering with a witness after he tried
             to persuade an employee of Marino's firm to lie to investigators. In August 1998,
             Modern entered into a $500,000 settlement agreement for the company's role.
             OIG, the FBI and state agencies investigated the case.




Contract employee sentenced for false statement to FAA

James Sutton pleaded guilty and was fined $250 for making false statements in
connection with his application as a contract weather observer for the FAA in
Delhart, Texas. In addition to the fine, Sutton was sentenced to 2 years' probation
in Fort Worth Federal court. Sutton had falsely stated in his employment applica-
tion that he had no criminal history, when in fact, he had been convicted of felony
theft. This case was investigated by OIG and the FAA.




                                   30
                                                              February 1999

                 Abuse of Coast Guard training, facilities
                 leads to restitution, reprimand, retirement

                 A tip to the OIG Hotline spurred a U.S. Coast Guard investigation of one of
                 its employees, who was alleged to have used USCG funds to get training for
                 an outside career in law enforcement and to have misused Coast Guard
                 phones. The investigation found those allegations had merit, and also
                 reached a conclusion that the employee violated policy by working as a
                 reserve deputy sheriff. The employee was charged under the Uniform Code
                 of Military Justice, ordered to reimburse the Coast Guard $2,000 for tele-
                 phone expenses and issued a letter of reprimand. He retired from the Coast
                 Guard.



Roofing company sentenced in transport, abandonment of
waste drums

Insulation Foam and Roofing Inc. of Jackson, MS and employee David
Aultman were ordered to make $25,000 in restitution to the Environmental
Protection Agency for costs of cleaning up more than 100 drums they trans-
ported and dumped, which contained hazardous waste. Aultman also must
serve 6 months' home confinement and 2 years' probation; the corporation
also was placed on 2 years' probation. The case was investigated by OIG, the
FBI, and the EPA, with assistance from Mississippi Department of
Environmental Quality.



         Inspector General recommendations included in FAA
         reauthorization proposal

         The Administrations proposal to Congress for reauthorization of the Federal Aviation
         Administration included several provisions based on recommendations made by the Office
         of Inspector General and supported by Secretary Slater. These include Whistleblower
         Protection Act coverage for FAA employees, application of the Procurement Integrity statute
         to deter fraud or conflict of interest in awarding FAA contracts, and OIGs reimbursement
         from the Aviation Trust Fund for mandated audits of FAA financial statements. Also incor-
         porated was an OIG suggestion that passenger facility charges could be used to finance sur-
         face transportation projects that increase ground access to airports on a cost-sharing basis
         with other highway and transit funds. But doing so could not jeopardize financing of safety,
         security and capacity-related projects at the affected airports.

                                                   31
                    Construction firms, officials pay $14.4 million in fines

                    Two Illinois road-construction firmsPalumbo Brothers, Inc. and Monarch
                    Asphalt Co.pleaded guilty to fraud and violation of the Racketeer-Influenced
                    and Corrupt Organizations Act. Also pleading guilty were Peter Palumbo and his
                    sons, Joseph and Sebastian. Palumbo Brothers admitted to bribing an Illinois
                    transportation department engineer, and to collecting more than $1.7 million
                    through false claims, including phony invoices. Scales used to weigh asphalt for
                    billing purposes were deliberately skewed. Monarch Asphalt acknowledged rack-
                    eteering. Under plea agreements, Palumbo Brothers Inc. will pay $12 million, and
                    Monarch Asphalt will pay $2.2 million, in fines and restitution; both firms will be
                    barred from future government-financed highway work. The Palumbos each face
                    a fine of $250,000 and must make restitution totaling $40,500.




Travel agents paid incentives by airlines should inform agency customers

Commission overrides are incentive payments made by airlines to some travel agencies in
return for the agencies' meeting targeted sales levels. The payments are in addition to base
commissions. We concluded (report CE-1999-060) that overrides change the relationship
among passengers, travel agents, and airlines and may encourage travel agents to influence
passenger travel decisions based on financial incentives from the airlines. Disclosure of the
existence of overrides and other financial incentives would help consumers protect their
own interests. We recommended the existence of override commissions be disclosed to
consumers before reservations are booked or airline tickets purchased.



                    Port engineer sentenced for bribery

                    Robert J. Collins, port engineer for Bay Ship Management, Inc., was fined
                    $8,600 and sentenced to 6 months' home confinement and 3 years' probation fol-
                    lowing his guilty plea on a charge of bribery. Between 1995 and 1998, in
                    response to Collins' prompting, several ship-repair contractors in the Norfolk, VA
                    area gave Collins gratuities in exchange for confidential bid information on gov-
                    ernment contracts. Additionally, Collins awarded subcontracts to one of the con-
                    tractors who had bribed him, without soliciting and receiving competitive bids
                    from other contractors as required. In order to conceal his scheme, Collins fab-
                    ricated bid proposals from other contractors without their knowledge or consent.
                    The FBI undercover investigation was conducted with DOT/OIG participation.


                                         32
                                                                         March 1999

      Illinois state employees, customers jailed in commercial-license bribery scheme

      Three employees of Illinois' commercial driver's license testing facility were sentenced in a bribery
      scheme that let unqualified students of a commercial truck-driving school be listed as passing the
      state exam. License-holders can haul hazardous materials. Two bribe-givers also were jailed in the
      scheme. Ann Mastrodomenico, a manager in Illinois' commercial drivers license testing facility,
      was sentenced to 5 months in jail, 5 months' home confinement and a $25,100 fine; Phyllis Volpe,
      another facility official, got 4 months' imprisonment and 4 months' home confinement. Also sen-
      tenced were retired state employee Carmen Fajdich, to 14 months' home confinement and a
      $25,100 fine; truck-repair company owner Miodrag Dobrosavljevich, to 14 months in prison; and
      truck-driving school instructor Janusz Kryzak, to 10 months in prison. The case was jointly inves-
      tigated by OIG, the FBI, the IRS and the Postal Inspection Service.


FTA should perform accident-cause analysis
for rail-transit program

In report TR-1999-071, OIG analyzed the Federal Transit Administration's
implementation of the first state-managed oversight program for rail transit
safety. We found that states with rail fixed-guideway systems (usually "light
rail") have generally complied with the program's requirements. But FTAs
accident-reporting system does not provide information needed to assess the
underlying causes of accidents involving rail transit systems. OIG recommend-
ed that FTA obtain more complete information about accident causes. FTAs
authority over safety at local transit agencies is limited to instances in which
hazardous safety conditions exist. OIG also recommended that FTA determine,
through accident-cause analysis, whether an expanded FTA role can improve
transit safety.
       Auditors unable to render opinion on
       FAA's Fiscal Year 1998 financial statements

       We could not determine the reliability of significant portions of the FAA financial statements
       and were unable to express an opinion on the FAA financial statements for the fiscal year end-
       ing September 30, 1998. Our report (FE-1999-070) focused on actions taken on five previ-
       ously reported material weaknesses: real property, personal property, work-in-process, account-
       ing for field spares, and inventory valuation. FAA made significant progress accounting for
       inventory. However, real property, personal property, and work-in-process, reported at $11.9
       billion, still could not be substantiated. FAA agreed property weaknesses exist, and initiated
       plans to correct them by September 30, 1999. We also testified about these and related mat-
       ters (report FE-1999-073) before the House Committee on Government Reforms
       Subcommittee on Government Management, Information and Technology.
                                                      33
     Records falsification concealing
     improperly tempered aircraft parts spurs conviction

     West Coast Aluminum Heat Treating Co. of Los Angeles and its president, June
     Fitch, were found guilty of conspiracy and making false statements in a jury trial.
     The firm had falsely attested that military and commercial aluminum aircraft parts
     had been properly heat-tempered and tested. At the close of the trial, Fitch's son
     Eugene, vice-president of the firm, also pleaded guilty to conspiracy, making false
     statements and obstruction of justice. The latter charge stemmed from his ordering
     the destruction of documents. Heat-treating boosts the strength and useful life of
     the parts. OIG jointly investigated the case with the Defense Criminal
     Investigative Service and NASA/OIG.


FAA must improve management to bring data link to controllers, pilots

Our review (AV-1999-057) analyzed FAAs plans, for implementing a data link system for
controllers and pilots. Data link, similar to e-mail, would supplement radio voice com-
munications. Data link will be essential to "Free Flight," a proposed system that would let
pilots select the most direct flight plan that could safely be traveled rather than flying set
paths based on existing ground-based tracking. A consensus has emerged on the initial steps
for implementing data link in domestic airspace. However, development will be a complex,
long-term effort. We recommended that FAA develop a comprehensive plan, including cost
estimates; stay on top of human-factors issues; assess the effects of phasing in data link
through industry equipment upgrades; and take advantage of related European work. FAA
concurred with our recommendations.


     OIG testifies about FAAs financing and cost-control

     In testimony before the House Appropriations Committees Subcommittee on
     Transportation and Related Agencies (AV-1999-066), we spoke to issues of FAA
     financing, its operations costs and their implications for other critical agency func-
     tions, and actions needed to improve fiscal management and accountability at the
     agency. Noting that Congress has before it proposals for changing FAAs financ-
     ing, we testified that regardless of the method chosen, FAA must do more to con-
     trol its operations costs to keep them from threatening funding of other critical
     programs such as air traffic modernization. Operations costs represent the largest
     part of FAAs budget and have grown an average of 6.2 percent over the past 3
     years. We recommended that FAA develop the fiscal and management tools need-
     ed to operate like a business.


                                             34
                                                                            March 1999

               DOT's computer center not cost-effective, should be phased out

                Our analysis of the operations of the Transportation Administrative Services Center
               (TASC) Computer Center (report MA-1999-062) led to the conclusion that the cen-
               ter should phase out its operations within 2 years, because it is not competitive in the
               marketplace. During Fiscal Year 1998, the center made some progress in improving
               its cost-effectiveness and reduced its billing rate by 20 percent. Nonetheless, its 3
               largest customerstogether accounting for 90 percent of its FY 1998 revenue
               have already discontinued using its mainframe data processing, or plan to within 2
               years. Reasons cited were the center's lack of cost-competitiveness and the avail-
               ability of less-expensive technology. Lack of cost-competitiveness has prevented the
               center from attracting significant new data-processing business.


FRA should staff up to monitor railroad bridge safety, consider
mandatory compliance

Following a 1992-93 Federal Railroad Survey of railroad bridge safety status,
FRA issued an interim policy aimed at maintaining or improving safety of
bridges controlled by the smallest category of freight railroads. Finding that
such "Class III" railroads had spotty records of making bridge-checks11 of 39
had no record of having inspected their bridges at allFRA issued engineering
standards and asked for voluntary checks and compliance. Our audit (TR-1999-
077) concluded that FRA should be more specific about actions needed to
ensure bridge safety, boost its own staffing for the monitoring of railroad bridge
oversight, and routinely evaluate such oversight. If deficiencies continue,
FRA's voluntary guidelines should become mandatory.


               OIG testifies on FAA aviation-security work

               In testimony before the House Appropriations Committees Subcommittee on
               Transportation and Related Agencies (report AV-1999-068), OIG addressed three
               security areas. First, FAA is deploying explosives-detection equipment on an
               unprecedented scale; the equipment is underutilized, but usage is increasing.
               Second, in security oversight of checked baggage to be carried in the aircraft hold,
               screening and equipment systems worked as intended but there were weaknesses in
               implementation of new security requirements. Finally, regarding access to areas
               meant to be secure at airports, we recommended that FAA testing of such secure
               access be broadened in terms of the number, type and scope of tests.



                                                      35
Aviation competitive-advantage questions
spur review of venture; issue resolved

Concerns about potential conflict of interest prompted OIG, with DOTs Office of General
Counsel and FAAs Chief Counsel to review the organization and mission of Skysource, Inc.
Skysource was a for-profit joint venture involving a wholly-owned subsidiary of the MITRE
Corp. called AvInt, and Aviation Radio, Inc. (ARINC). Skysource was created in 1997 to sup-
port air traffic control modernization by helping FAA understand private-sector effects of
changes. ARINC was to deliver Skysource products and data through its communications net-
work. There were concerns that the MITRE affiliates involvement in the for-profit venture
could affect the objectivity of MITREs Federally funded research and development advice to
FAA and that Skysource and AvInt could gain an edge over private competitors in for-profit
modernization offerings. Before a final report was issued, the concerns were resolved when
ARINC bought out AvInts interest in Skysource.


   Lack of reliable information prompts disclaimer
   on DOT's FY 1998 financial statements

   Because we could not determine the reliability of significant portions of the Consolidated
   Financial Statements for the year ended September 30, 1998, we issued a disclaimer of
   opinion (report FE-1999-081). U.S. Coast Guard and Federal Aviation Administration
   property and work-in-progress reported at $20.6 billion and Coast Guard inventory
   reported at $1 billion could not be substantiated. Operating costs of more than $41 bil-
   lion were not properly presented on the statement of net cost. The presentation combined
   programs and activities with many separate goals and did not link program costs to per-
   formance measures. Reconciliation of the statement of financing identified unexplained
   differences totaling $11.6 billion that were not adequately disclosed.

Three of Highway Trust Fund's FY 1998 financial statements
get "clean" audit opinion

OIG, in report FE-1999-079, rendered an unqualified ("clean") opinion on the Highway
Trust Fund's balance sheet, statement of net cost, and statement of changes in net position
for the fiscal year ending September 30, 1998. However, we could not determine the
reliability of much of the statement of budgetary resources and statement of financing, and
were unable to express an opinion on those statements. FHWA could not provide records
to substantiate line items totaling $160 billion in obligations and adjustments on the new
statement of budgetary resources. The statement of financing also showed a $10.4 billion
difference between the statement of budgetary resources and the statement of net cost.
Unliquidated obligations were not reviewed annually, as required by Treasury Manual 98-
09, and we identified $562 million in obligations that may not be needed for project com-
pletion.
                                        36
                                                                     March 1999

          OIG testifies before Congress on air traffic control modernization

          The Inspector General testified March 9 before the U.S. House Appropriations
          Committees Subcommittee on Transportation and Related Agencies regarding air
          traffic control modernization (report AV-1999-065). Issues addressed included
          work to address human factors in the Standard Terminal Automation Replacement
          System and the need to include costs of a backup system for the next 15 years in
          its satellite-navigation Wide Area Augmentation System. We noted common
          threads among FAAs problems including management of software development,
          human factors and unrealistic schedules. OIG urged that such problems be
          addressed early in new FAA programs including Free Flight and Data Link, and
          spoke on the status of Year-2000 computer problems at FAA, including the need
          to implement in the field all the repairs identified by headquarters.

OIG more confident in DOT, FAA efforts to identify and repair
Year-2000 computer problems

OIG has a higher level of confidence in FAA and DOT efforts to repair Year-2000 computer prob-
lems than it did a year ago, the Inspector General testified (report FE-1999-072) before a joint hear-
ing of two U.S. House subcommittees. Such mission-critical systems as air traffic control appear far
more likely to be Year-2000 compliant, following a year of intensive work by FAA, than they did a
year ago, the Inspector General told the Subcommittee on Government Management, Information and
Technology of the House Committee on Government Reform and the Subcommittee on Technology
of the House Committee on Science. DOT has 607 mission-critical systems, of which 309 had Year-
2000 problems in need of repair. FAA and the Coast Guard plan to be finished by June, with the
exception of one Coast Guard system. But the need to duplicate the repairsin thousands of loca-
tions, in FAAs casemay prove a daunting task. We urged FAAs Administrator to require aviation
industry certification of Year-2000 compliance and to develop a Year-2000 policy for U.S. airline
travel to other countries.

      OIG testifies on FAAs research, engineering
      and development program

      Research and development will be the key to improving aviation safety, providing
      increased capacity and strengthening aviation security. OIG testified (report AV-1999-
      064) before the House Committee on Science Subcommittee on Technology regarding
      recent developments in that area. We noted FAA and the National Aeronautics and Space
      Administration have a memorandum of understanding to help coordinate joint research
      efforts, following OIGs earlier recommendations. We discussed FAAs pending research,
      engineering and development budget request; underscored the importance of FAA build-
      ing human factors into its new-system development; and discussed recent changes to
      FAAs Flight 2000 project, recently renamed Safe Flight 21.
                                              37
                     OIG Fiscal Year 1999 Budget

                                  (Dollars in Thousands)

       Other
         $2,111            General Services
                           Administration Rent$2,436
 Travel$2,150
 TASC$1,277*




Benefits
    $7,753
                                                                            Personnel Compensation
                                                                            $29,539




    *The Transportation Administrative Service Center provides reimbursable services to DOT
    operating administrations. OIG pays TASC for services including telecommunications, com-
    puter support, printing, copying, building management and the Departments central library.




                                              38
        Organization/Management

                         INSPECTOR GENERAL

                        DEPUTY INSPECTOR GENERAL


                                                                            LEGAL COUNSEL

ASSISTANT IG FOR                 ASSISTANT IG FOR                         COMMUNICATIONS

 INVESTIGATIONS                      AUDITING                       INFORMATION/HUMAN RESOURCES

                                                                    FINANCIAL/ADMINISTRATIVE SVCS.




      DEPUTY           DEPUTY         DEPUTY           DEPUTY             DEPUTY              DEPUTY
      AIG FOR          AIG FOR        AIG FOR          AIG FOR            AIG FOR             AIG FOR
     INVESTIG-        AVIATION       HIGHWAYS       RAIL, TRANSIT       FINANCIAL,           MARITIME
      ATIONS                            AND              AND          ECONOMIC &            AND DEPART-
                                     HIGHWAY        SPECIAL PRO-       INFO. TECH-          MENTAL PRO-
                                       SAFETY         GRAMS              NOLOGY               GRAMS




   The Office of Inspector General for the Department of Transportation was created by
   Congress through the Inspector General Act of 1978 (Public Law 95-452). The Act sets
   several goals for OIG:

                    z	 To conduct or supervise objective audits and investigations of
                       DOTs programs and operations;
                    z To promote economy, effectiveness and efficiency within DOT;
                    z To prevent and detect fraud, waste, and abuse in the Departments
                       programs;
                    z To review existing and proposed laws or regulations affecting the
                       Department and make recommendations about them, and
                    z	 To keep the Secretary of Transportation and Congress fully
                       informed about problems in Department programs and operations.

   OIG is divided into two major units and five support units. The major units are the Office
   of Assistant Inspector General for Auditing and the Office of Assistant Inspector General
   for Investigations; each has headquarters staff and regional staff. The support units are the
   Office of Legal Counsel, the Communications Office, the Office of Information Resource
   Management, the Office of Human Resources and Training, and the Office of Financial
   and Administrative Services.
                                            39
            Completed Audits October 1, 1998-March 31, 1999

                       (Dollars in Thousands)

                                                  Estimated Amounts*

Type of Review	                          No. of     No. of        Costs           Costs Un-           Funds to
                                         Reports    Recomm. Questioned            Supported           Better Use

Internal Audits:

       Program/Functional                  35         84      $ 2,600             $       0           $ 19,166

       Chief Financial Officer


       Financial Statements:                9         11      $           0       $        0          $142,919
       Total Internal Audits               44         95      $ 2,600             $        0          $162,085


Grant Audits:
      Audits of Grantees under
      Single Audit Act                     30         15      $ 5,099             $        0          $          0
      Other Grant Audits                    0          0      $     0             $        0          $          0
      Total Grant Audits                   30         15      $ 5,099             $        0          $          0

Contract Audits:
      Contracts                             4         3       $ 410               $        0          $      0
      Total Contract Audits                 4         3       $ 410               $        0          $      0
      TOTALS                               78       113       $ 8,109             $        0          $162,085

                   * The dollars shown are the amounts reported to management. The actual amounts may change
                   during final resolution.




           Department of Transportation programs and operations are primarily carried out
           by the Departments own personnel and recipients of Federal grants. Audits by
           DOTs Office of Inspector General, as a result, fall into three categories: internal
           audits of Departmental programs and operations, audits of grant recipients, and
           reviews of work and spending by contractors. The table above shows OIGs results
           in the three categories for the 6 months covered by this report.


                                                             40
      Management Decisions Regarding Audit Recommendations
                                                (Dollars in Thousands)
                              Number         Number of                                                     Funds to be
                                of           Recommen-           Questioned          Unsupported           Put to Better
     Description              Reports          dations             Costs               Costs*                  Use

      Unresolved                  32              100              7,116                     0                $407,996
     as of 9/30/98
      Audits with
    Findings During               38              113               8,109                    0               $162,085
    Current Period

Total to be Resolved              70              213              15,225                    0               $570,081


    Mgt. Decisions:
    A.Audits Prior                19                   64           376                      0                $ 73,608
        Period

   B.Audits Current
                                  20                   43          1,334                     0               $143,397
       Period

   Total Resolved
                                  39              107              1,710                     0               $217,005
Reports/Recommen-
      dations

   Unresolved as of
                                  31              106              13,516                    0               $353,076
     3/31/99**

Aging of Unresolved
       Audits:
                                                                    6,776                                     $18,688
Less than 6 mos. old              20               70                                        0
   6 mos. - 1 year                 6               13                  19                    0                $287,460
  1 year - 18 mos.                 0                   0                 0                   0                $       0
 18 mos. - 2 years                 0                   0               0                     0                $       0
  Over 2 years old                 5               23              6,721                     0                $46,928



TOTALS                            31              106              13,516                    0               $353,076
*Unsupported costs included with the figure shown as               ** A report is considered unresolved if management deci-
questioned costs.                                           41     sions have not been made on all report recommendations.
     Audit Reports with Recommendations That Questioned Costs

                                                   (Dollars in Thousands)

                                        Number of             Number of Rec- Questioned                         Unsupported*
                                        Reports               ommendations   Costs                               Costs

A.     For which no manage-
       ment decision had
       been made by start of
       the reporting period              6                    10                    $ 7,116                 $      0


B.     Which were issued
       during the period                10                    14                    $ 8,109                 $      0


   Totals (A+B)                         16                    24                    $15,225                 $      0
C.    For which a manage-
      ment decision was
      made during the
      reporting period                   8                    10                    $ 1,710                 $      0

       (i) dollar value of dis-
       allowed costs                     7**                  9**                   $    915                $      0
       (ii) dollar value of
       costs not disallowed              2**                  2**                   $    795                $      0

D.     For which no manage-
       ment decision has been
       made by the end of the
       reporting period       8                               14                    $13,516                 $      0

 *Unsupported costs are also included in the figures shown as questioned costs. ** Includes reports in which costs were both
 allowed and disallowed. *** Includes recommendations in which costs were both allowed and disallowed.

The Inspector General Act requires explana-                           The Inspector General Act also requires this
tions of reasons for significant revisions to                         report to describe any significant manage-
management decisions made during the                                  ment decision with which the Office of
reporting period. OIG follows up on audits                            Inspector General disagrees. At the close of
reported in earlier Semiannual Reports.                               this reporting period, there were no signifi-
During this reporting period, there were no                           cant management decisions with which
significant revisions of Departmental man-                            OIG disagreed.
agement decisions reported to OIG.
                                                             42
        Audit Reports with Recommendations that Funds be Put

                            to Better Use

                                                 (Dollars in Thousands)


                                                       Number of                  Number of                  Dollar
                                                       Reports                    Recommend-                 Value
                                                                                  ations                 (in thousands)
A.      For which no management
        decision had been made by
        the commencement of the
        reporting period                                          8                     15               $407,996

B.      Which were issued during the
        reporting period                                          6                     10               $162,085

        TOTALS (A+B)                                             14                     25               $570,081

C.      For which a management decision
        was made during the reporting
        period                                                    8                     13               $217,005


        (i)     dollar value of recommenda-
                tions that were agreed to by
                management:                                       7*                    11*              $208,328

        (ii)    dollar value of recommenda-
                tions that were not agreed to
                by management                                     2*                     4*              $ 17,892

D.      For which no management decision
        had been made by the end of the
        reporting period                                          6                     12               $353,076

 *May include reports and recommendations in which some costs were allowed and others were disallowed.




                                                            43
                 Audit Reports Recommending Changes
                   for Safety, Economy or Efficiency

                                                      Number of      Number of
                                                       Reports    Recommendations
A.   For which no management decision had been made
     by the commencement of the reporting period         26             75



B.   Which were issued during the reporting period       28             89

     TOTALS: (A + B)                                     54             164



C.   For which a management decision was made
     during the reporting period                         30             84



D.   For which no management decision has been made
     by the end of the reporting period                  24             80




                                             44
                 Status of Unresolved Audit Recommendations

                              Over 6 Months Old

                  CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1993-MARCH 31, 1994

FAA-Monitoring of Airport Revenues at      R9-FA-4-001        10/18/93   Will be resolved when OST
Phoenix Sky Harbor International Airport                                 counsel provides legal opinion



                  CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1995-SEPTEMBER 30, 1995

FTA-Useful Life of Rail Cars, Washington   R4-FT-5-091        06/27/95   Will be resolved when OST
Metropolitan Area Transit Authority                                      counsel provides legal opinion

                  CITED IN SEMIANNUAL REPORT FOR OCTOBER 1, 1995-MARCH 31, 1996

FAA-Controls over Access to Aircraft       AS-FA-6-004        02/20/96   Will be resolved when FAA
for Free Transportation                                                  contract with controllers is finalized
FAA-Voluntary Separation                   R6-FA-6-009        02/09/96   Awaiting FAAs investigation and U. S.
Incentive Payments                                                       Attorney action.

                  CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1996-SEPTEMBER 30, 1996

FAA-Airport Improvement Program            R9-FA-6-015        09/20/96   Working with FAA to resolve
Grants Provided to Hawaii DOT                                            all open issues.



                  CITED IN SEMIANNUAL REPORT FOR APRIL 1, 1998-SEPTEMBER 30, 1998

FAA-Personnel Reform: Recent Actions       AV-1998-214        09/30/98   Resolution will be completed during
 Represent Progress, But Further Effort                                   the fourth quarter of FY 1999
 is Needed
FAA-Liaison and Familiarization Training   AV-1998-170        08/03/98   Will be resolved when FAA completes
                                                                          negotiations with its unions
Awarding Discretionary Funding in the   MA-1998-155           06/12/98   Resolution will be completed during
 U.S. Department of Transportation                                        the third quarter of FY 1999
FAA Controls Over Air Courier Shipments AV-1998-149           06/02/98   Being referred to the Departmental
                                                                          resolution official
Michigan Department of Transportation      QC-1998-142        05/14/98   Resolution will be completed during
                                                                          the third quarter of FY 1999
Central Artery/Ted Williams Tunnel Project TR-1998-109        04/03/98   Will be resolved when OIG issues its
                                                                          report on the Owner-Controlled
                                                                          Insurance Program




                                                         45
                              Profile of Pending Investigations
          DOT Operating                      Number of                            Types of Cases
          Administration                       Cases            Contracts Employees Grants           Other*
Federal Aviation
Administration                                   197                27            52            5     113

Federal Highway
Administration                                   150                12             5           24     109

Federal Railroad Administration                    4                  1            1            0       2

Federal Transit Administration                    28                  7            0           13       8

Maritime Administration                           10                  4            3            0       3

National Highway Traffic
Safety Administration                              5                  0            1            0       4

Office of the Secretary                            9                  3            1            0       5

Research and Special Programs
Administration                                    22                  2            1            1     17

Saint Lawrence Seaway
Development Corp.                                  0                  0            0            0       0

U.S. Coast Guard                                  36                 11           12            0      13

Other agencies                                     2                 0             2            0       0
      TOTALS:                                    462                67            78           43     274

        Percent of total:                       100                 15            17            9      60


*Includes companies and individuals making false statements to officials of Departmental programs.




                                                       46
                 Investigations
                                                              OIG investigations in this
                Judicial Actions
                                                              reporting period spurred
          October 1, 1998-March 31, 1999                      $18,203,513 in recoveries
                 Indictments 78                               including fines, restitution,
                 Convictions 71                               civil judgments or settle-
             Years Sentenced 107                              ments, and Federal and
             Years Probation 172                              State recoveries. Federal
                        Fines $355,396                        recoveries go to the U.S.
Restitutions/Civil Judgments $17,371,010                      Treasury. State recoveries
            Federal Recovery $381,007                         are retained by the states.
              State Recovery $96,100

                    TOTAL $18,203,513



 The 6 months covered by this
                                                       Investigations
 report opened with a pending
                                                   Administrative Actions
 caseload of 403. During the
 period, 134 cases were opened                  October 1, 1998-March 31, 1999
 and 75 were closed, leaving a
 pending caseload of 462. Our                         Employee Suspensions      6
 investigators made a concert-              Employee Reassignment/Transfer      1
 ed effort during the period to             Employee Resignation/Retirement     3
 clear backlogs.                                       Employee Terminated      1
                                                       Employee Restitution     1
                                                       Employee Reprimand       2
                                                        Employee Counseled      5
          During the period, 95                    Debarments/Suspensions       1
          cases were accepted for                 Federal funds redistributed   1
          prosecution, while 27
                                                     Termination of contract    1
          were declined.     The
                                                            Corrective Action   8
          number of cases pend-
          ing before prosecutive                   New Procedure Instituted     5
          authorities as of March                    Regulation/rule revised    1
          31, 1999 was 120.                            Restatement of Policy    3

                                                                      TOTAL 39


                                           47
Ancillary Public Benefits
 of OIG investigations


 Though investigative outcomes are traditionally measured in numbers of
 indictments, convictions and monetary recoveries by courts, these cate-
 gorizations do not capture the full impact of investigations by DOTs
 Office of Inspector General. Some positive effects occur outside judicial
 purview.

 For example, in two Georgia cities, OIG investigations of alleged viola-
 tions of the Natural Gas Pipeline Safety Act of 1968 spurred safety
 improvements, in addition to the probes involving individuals (see pages
 14 and 27). As a result of OIGs probe, the city of Dublin agreed to make
 some $650,000 in improvements to its natural-gas distribution system,
 abating a public hazard. In a related case, the city of Dalton is making
 $2.5 million in improvements to its natural gas lines, improving safety
 and cutting maintenance and gas-leakage costs to the system.

 In another instance, an OIG investigation located a computer disk con-
 taining a flight data transmission system recently valued by FAA at $1
 million. A former FAA employee who had written that codeat an orig-
 inal cost of $375,000had resigned saying that the code existed only on
 a laptop computer and had been lost when that computer crashed.

 OIG found the computer disk containing the code at the former FAA
 employees home, but it had been rendered inaccessible. Following ques-
 tioning by OIG special agents, the former employee divulged the pass-
 word for the disk.




                         48
Application of Audit Resources
by Operating Administration


                       FRA 4%    MARAD 2%        RSPA 1%
          COAST        FTA 4%                   NHTSA 1%
          GUARD
                                                                            FAA
           12%
                                                                            39%

       FHWA
        14%




                                     OFFICE OF
                                   THE SECRETARY
                                        23%*



                                            *A substantial portion of this percentage reflects
                                            OIGs work auditing the Departments Consolidated
                                            Financial Statements




Application of Investigative Resources
by Operating Administration

       COAST        RSPA     MARAD 2%
                                          FRA 1%
       GUARD         5%       OST 2%
                                         NHTSA 1%
         8%                                                          FHWA
       FTA                                                            32%
        6%




              FAA
              43%




                                   49
                          Office of Inspector General

                                 Audit Reports

                         October 1, 1998-March 31, 1999


                                  FEDERAL AVIATION ADMINISTRATION

INTERNAL AUDITS - 18 reports
                                                                                         FOCUS OF REPORT/
REPORT         DATE       SUBJECT
                                                       RECOMMENDATIONS:
AV-1999-074   03/25/99    Air Traffic Control Modernization Testimony
                   Modernize National Airspace
AV-1999-069   03/30/99    Aviation Safety
                                               Improve safety
AV-1999-065   03/30/99    Air Traffic Control Modernization
                             Modernize National Airspace
AV-1999-068   03/24/99    Aviation Security
                                             Improve aviation security
AV-1999-064   03/22/99    FAAs Research, Engineering and Development Program 
          Modernize National Airspace
AV-1999-066   03/22/99    FAA Financing and Cost-Control
                                Improve financial management
FE-1999-073   03/18/99    Financial Management at the Federal Aviation Administration
   Improve financial management
FE-1999-070   03/08/99    FAA FY 1998 Financial Statements 
                             Improve financial management
AV-1999-057   02/24/99    FAA Progress Implementing Data Link
                           Modernize National Airspace
AV-1999-056   02/23/99    Use of Airport Revenue/BART Extension to San Francisco
        $2,600,000 questioned
                                           International Airport
AV-1999-048    01/29/99   Audit of the Compensation Program for Expansion of             Improve grant management
                                           Dallas/Fort Worth International Airport
AV-1999-052   01/27/99    Use of Airport Revenue, Denver International Airport           Improve grant management
AV-1999-030   11/30/98    Using Direct Access Radar Channel During HOST Replacement      Improve training
AV-1999-029   11/27/98    Use of Airport Revenue, Hancock International Airport          Improve grant management
AV-1999-020   11/16/98    Supervisory Reductions/FAAs Controller-in-Charge Policy       Improve training
MA-1999-017   11/09/98    Hotline Referrals                                              Ensure follow-up
AV-1999-008   10/08/98    FAA/NASA R&D Coordination Efforts                              Improve coordination
AV-1999-001   10/05/98    Deployment of Explosives-Detection Systems                     $1,701,513 better use




GRANT AUDIT - POST-AWARD - 6 reports

QC-1999-058   02/18/99    Rhode Island Airport Corporation                               Better grantee oversight
QC-1999-050   01/26/99    City of Spokane Airports                                       Better grantee oversight
QC-1999-045   01/08/99    City of Dallas, Texas                                          Better grantee oversight
QC-1999-044   01/08/99    State of Hawaii, DO, Airports Division                         Better grantee oversight
QC-1999-042   01/06/99    Rhode Island Airport Corporation                               Better grantee oversight
QC-1999-003   10/06/98    Single Audit of Provo City Corporation                         $154,000 questioned




                                                           50
                                FEDERAL HIGHWAY ADMINISTRATION


INTERNAL AUDITS - 6 reports

                                                                                              FOCUS OF REPORT/
REPORT          DATE          SUBJECT                                                         RECOMMENDATIONS:
FE-1999-079   03/30/99   FY 1998 Highway Trust Fund Financial Statements                      Improve financial management
TR-1999-061   03/24/99   Cancellation of FHWAs Truck and Bus Safety Summit                   Improve financial management
TR-1999-055   02/23/99   FHWA Motor Carrier Safety                                            Improve truck safety
TR-1999-034   12/23/98   Motor Carrier Safety Program for Commercial Trucks at U.S. Borders   Improve truck safety
TR-1999-028   11/24/98   Review of Utah I-15 Reconstruction Project                           Keep finance plan current
TR-1999-010   10/16/98   Alameda Corridor Project                                             Improve staff management

GRANT AUDIT - POST-AWARD - 6 reports

QC-1999-035   12/29/98   New Mexico State Highway and Transit Department                      Better grantee oversight
QC-1999-022   11/19/98   City of San Bruno                                                    $133,694 questioned
QC-1999-014   10/29/98   State of Wisconsin                                                   Better grantee oversight
QC-1999-012   10/22/98   State of New Hampshire                                               Better grantee oversight
QC-1999-011   10/20/98   State of Wisconsin                                                   Better grantee oversight
QC-1999-006   10/06/98   State of Minnesota                                                   Better grantee oversight




                                FEDERAL RAILROAD ADMINISTRATION


INTERNAL AUDITS - 3 reports

                                                                                              FOCUS OF REPORT/
REPORT          DATE           SUBJECT                                                        RECOMMENDATIONS:
TR-1999-077   03/31/99    Railroad Bridge Safety Program                                      Improve safety
CE-1999-063   03/04/99    Amtraks Financial Outlook                                          Assess long-term revenue/
                                                                                                    expenses
TR-1999-027   11/23/98    Report on Independent Assessment of Amtraks                        Assess long-term revenue/
                          Financial Needs through Fiscal Year 2002                                  expenses




GRANT AUDITS - POST-AWARD - 1 report

                                                                                              FOCUS OF REPORT/
REPORT         DATE           SUBJECT                                                         RECOMMENDATIONS:


QC-1999-005   10/06/98   City of Baltimore, Maryland                                          Better grantee oversight



                                                           51
                                       MARITIME ADMINISTRATION


GRANT AUDITS - 4 reports

                                                                            FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                            RECOMMENDATIONS:

MA-1999-032   12/08/98   Barge Carib Incorporated, Cargo Preference         $375,913 questioned
MA-1999-026   11/20/98   Atlas Marine Co., Operating Differential Subsidy   Verified costs claimed
MA-1999-025   11/20/98   American Overseas Marine Co.,                      $28,161 questioned
                         National Shipping Authority Agreement
MA-1999-024   11/20/98   Apex Marine Corp.,                                 $6,303 questioned
                         National Shipping Authority Agreement




                         OFFICE OF THE SECRETARY OF TRANSPORTATION


INTERNAL AUDITS - 2 reports

                                                                            FOCUS OF REPORT/
REPORT         DATE           SUBJECT                                       RECOMMENDATIONS:

FE-1999-081   03/30/99   FY 1998 Consolidated Financial Statements          $85,918,645 better use
FE-1999-072   03/15/99   The Year-2000 Technology Challenge                 Assured reported status



OTHER - 6 reports

                                                                            FOCUS OF REPORT/
REPORT         DATE           SUBJECT                                       RECOMMENDATIONS:

QR-1999-067   03/05/99   Office of Inspector General                        Improved management controls
                         Senior Managers Travel
MA-1999-062   03/03/99   Transportation Administrative Services Center      $14,600,000 better use
                         Computer Center
CE-1999-060   03/02/99   Travel Agent Commission Overrides                  Better commission information
CE-1999-054   02/05/99   Air Carrier Departure Data                         Make data reporting uniform
TW-1999-031   12/09/98   Top Ten Management Issues,                         Congressional advisory
FE-1999-009   10/14/98   Home Leave and Post Differential                   $478,000 costs questioned




                                                         52
                                      UNITED STATES COAST GUARD


INTERNAL AUDITS - 4 reports

                                                                                     FOCUS OF REPORT/
REPORT          DATE          SUBJECT                                                RECOMMENDATIONS:

FE-1999-076   03/24/99   Actuarial Estimates for Retired Pay and                     Validated future liabilities
                         Medical Benefits
FE-1999-075   03/24/99   Coast Guard Vessels and Aircraft                            Valuation of assets
FE-1999-051   01/27/99   Coast Guard Real Property                                   Valuation of assets
MA-1999-033   12/21/98   Patrol Boat Acquisition                                     Resolve outstanding issues




                                  FEDERAL TRANSIT ADMINISTRATION

INTERNAL AUDITS - 2 reports
                                                                                     FOCUS OF REPORT/
REPORT        DATE       SUBJECT                                                     RECOMMENDATIONS


TR-1999-071   03/12/99   State Safety Oversight Program for Rail Systems             Improve safety
FE-1999-016   11/06/98   Management of Grant Funds                                   $57,000,000 better use



GRANT AUDIT - POSTAWARD - 1 report

TR-1999-002   10/06/98   Fort Worth (TX) Transportation Authority                    $4,021,599 questioned



QUALITY-CONTROL REVIEWS - 16 Reports                                                 FOCUS OF REPORT/
                                                                                     RECOMMENDATIONS:
REPORT        DATE       SUBJECT
QC-1999-049   01/26/99   King County, Washington                                     Improve grantee oversight
QC-1999-047   01/12/99   Miami/Dade County, Florida                                  Improve grantee oversight
QC-1999-046   01/20/99   Followup Quality-Control Review, Boise City                 Improve grantee oversight
QC-1999-043   01/07/99   Bi-State Development Agency of Missouri/                    Improve grantee oversight
                         Illinois Metropolitan District
QC-1999-041   01/04/99   Metropolitan Transit District of Harris County, Texas       Improve grantee oversight
QC-1999-040   01/04/99   Desk Review/Single Audit of
                         Regional Transit District                                   Improve grantee oversight
QC-1999-039   01/04/99   Tri-County Metropolitan Transportation District
                         of Oregon
QC-1999-038   01/04/99   Miami Valley Regional Transit Authority                     Improve grantee oversight
QC-1999-037   08/24/98   New Jersey Transit Corporation                              Improve grantee oversight
QC-1999-036   01/04/99   San Francisco Bay Area Rapid Transit District               Improve grantee oversight
QC-1999-023   11/19/98   Capital Metro, Austin, Texas                                Improve grantee oversight
QC-1999-019   08/24/98   Northeast Illinois Regional Commuter Railroad Corporation   Improve grantee oversight

                                                          53
QC-1999-018     08/06/98       City of Austin, Texas                               Improve grantee oversight
QC-1999-015     10/30/98       City of Albuquerque, New Mexico                     $789,767 questioned
QC-1999-013     10/22/98       Denver Regional Transportation District             Improve grantee oversight
QC-1999-004     10/06/98       Greater Cleveland Regional Transit Authority        Improve grantee oversight



                               SAINT LAWRENCE SEAWAY DEVELOPMENT CORPORATION


Other - 1 report


REPORT              DATE            SUBJECT
                                       FOCUS OF REPORT/
                                                                                   RECOMMENDATIONS
QC-1999-078     03/29/99	       Quality Control Review of Saint. Lawrence Seaway   Verify financial statements
                                Development Corporation Financial Statements


                                        SURFACE TRANSPORTATION BOARD
OTHER - 2 reports
                                                                                   FOCUS OF REPORT/
REPORT              DATE            SUBJECT                                        RECOMMENDATIONS:

CE-1999-059         02/24/99        Surface Transportation Board
                                    User Fees Followup                             Improve financial management
CE-1999-021         11/17/98        Surface Transportation Board
                                    User Fees                                      Improve financial management




                                                              54
